 

          Office of Audits
          Office of Inspector General
 
          U.S. General Services Administration
 
 
 
 

        Review of Public Buildings Service’s 
        Procurement of Public Relations Services 
        at the Bannister Federal Complex 
        Task Order GS‐P‐06‐10‐GX‐0012       
        Report Number A110119/P/6/R12001
        January 10, 2012
 
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration


                                    REPORT ABSTRACT
                             Review of Public Buildings Service’s Procurement of Public Relations 
                             Services at the Bannister Federal Complex 
OBJECTIVE                    Report Number A110119/P/6/R12001
                             January 10, 2012 
The audit objective was to
evaluate the work received   WHAT WE FOUND 
under a Public Building      Based on our review of the work PBS received under the task order, we
Service (PBS) task order     had two findings:
awarded to Jane Mobley       Finding 1 – Task Order Value Was Limited
Associates, Inc. (JMA)       The Region received limited value for the work performed under the
                             task order because (1) the statement of work (SOW) was written by the
 
                             contractor and did not include measurable deliverables, and (2) regional
                             management directed the award of the task order to a sole source in a
 
                             single day.
                             Finding 2 – JMA Overcharged GSA
                             JMA incorrectly invoiced the Government under the task order
                             extension; as a result, JMA owes a refund in excess of $32,000.
                             WHAT WE RECOMMEND 
                             We recommend the Regional Commissioner, Public Buildings Service,
                             Heartland Region:
                                1. Implement controls to ensure that PBS contracting actions
                                   contain measurable deliverables in accordance with the FAR and
                                   that PBS associates prepare SOWs for contracting actions.
                                2. Instruct the contracting officer to issue a demand letter to JMA
                                   for the total amount that JMA overbilled the government under
                                   the subject task order.
Kansas City Audit Office     MANAGEMENT COMMENTS
1500 E. Bannister Road
                             Although PBS regional management did not agree with some of the
Room 2075 (JA-6)
                             language in the report, PBS concurred with the report findings and
Kansas City, MO 64131
                             recommendations. Management’s response is included in its entirety
816-926-7052
                             as Appendix F.
 
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            January 10, 2012
 TO:              Mary Ruwwe
                  Regional Commissioner, PBS (6P)

 FROM:            John F. Walsh    Do. 1f;1JJJ<
                  Regional  Insper~eneral for Auditing (JA-6)
 SUBJECT:         Review of Public Buildings Service's Procurement of Public Relations
                  Services at the Bannister Federal Complex, Task Order GS-P-06-1 0-
                  GX-0012, Report Number A110119/P/6/R12001

This report presents the results of our review of Public Buildings Service's procurement
of public relations services at the Bannister Federal Complex under Task Order GS-P-
06-10-GX-0012. Our findings and recommendations are summarized in the Report
Abstract. Instructions regarding the audit resolution process can be found in the email
that transmitted this report.

Your written comments to the draft report are included in Appendix F of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

   John Walsh       RIGA                       Johnf.walsh@gsaig.gov       816-926-8615
   John Pollock     Auditor                    John.pollock@gsaig.gov      816-926-8616
   Katina Beach     Management Analyst         Kati na. beach @gsaig.gov   816-926-8613

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – Task Order Value Was Limited ................................................................ 2
                 Recommendation 1 ................................................................................. 3
Finding 2 – JMA Overcharged GSA ........................................................................... 3
                 Recommendation 2 ................................................................................. 5
Conclusion ................................................................................................................ 5
Other Matters ............................................................................................................ 6
Management Comments .......................................................................................... 6

Appendixes
Appendix A – Purpose, Scope, and Methodology .............................................. A-1
Appendix B – February 18, 2011, Interim Audit Memorandum .......................... B-1
Appendix C – OIG’s April 20, 2011, Letter to Senate Subcommittee ................ C-1
Appendix D – Senator McCaskill May 9, 2011, Letter to GSA Administrator ... D-1
Appendix E – GSA Administrator’s May 20, 2011, Letter to Subcommittee...... E-1
Appendix F – PBS Response to Draft Report ...................................................... F-1
Appendix G – Distribution List ............................................................................. G-1




                                                                i
Introduction
Media reports in late 2009 and early 2010 raised questions regarding toxic substance
health risks at the Bannister Federal Complex (Complex) in Kansas City, Missouri. In
response to these reports, the Heartland Region’s (Region) Public Buildings Service
(PBS) awarded task order GS-P-06-10-GX-0012 to Jane Mobley Associates, Inc.
(JMA). This task order was awarded on February 5, 2010, for $99,940.25 and required
JMA to provide communications consultant services for the period February 5 to March
8, 2010. The task order was extended to May 10, 2010, for an additional cost not to
exceed $134,400.00, based on JMA’s actual labor hours expended during the extension
period. The cost of the task order (base period plus extension) totaled $234,338.08.

In addition, a blanket purchase agreement (BPA) was awarded to JMA for the period
June 1, 2010, through May 31, 2011. This BPA included four one-year option periods,
however, no orders were placed under the BPA, and the option for the second year of
the BPA was not exercised.

On February 18, 2011, the General Services Administration’s (GSA) Office of Inspector
General (OIG) issued an interim audit memorandum concerning the award and
administration of the subject task order (see Appendix B). In that memorandum, we
noted that GSA did not: (1) properly justify the use of a sole source in making this
award; (2) properly justify extending the task order; (3) adequately define the scope of
work; and (4) include measurable deliverables for the task order work.

On March 1, 2011, the GSA Inspector General (IG) and other GSA officials provided
testimony regarding this task order to the U.S. Senate Committee on Homeland
Security and Governmental Affairs, Ad Hoc Subcommittee on Contracting Oversight
(Subcommittee). During this hearing, the Subcommittee Chair expressed concern
regarding GSA’s failure to take responsibility for its actions. Specifically, the Chair
stated, “And finally, I would just say, accountability. If we now acknowledge at the end
of the hearing that mistakes were made, then I have yet to see where anyone was held
accountable for those mistakes.”

On April 20, 2011, the IG provided a supplemental statement to the Subcommittee (see
Appendix C). In this statement, the IG noted that some of the information provided by
GSA officials during the hearing contained misstatements of fact. The Subcommittee
requested additional information from the GSA Administrator by letter dated May 9,
2011 (see Appendix D). The GSA Administrator provided the Subcommittee a May 20,
2011, letter containing additional information (see Appendix E). However, some of the
details in this letter were incorrect and the letter did not change the OIG’s previous
position regarding the JMA task order and the information provided by GSA officials.

The objective of this audit was to evaluate the work received under the JMA task order.
See Appendix A – Purpose, Scope, and Methodology for additional details.




                                           1
Results
The Region received limited value for the work performed under the task order because
(1) the statement of work (SOW) was written by the contractor and did not include
measurable deliverables and (2) regional management directed the award of the task
order to a sole source in a single day.

In addition, the contractor overbilled the government. The hours submitted for payment
under the task order extension period were incorrect, inflating the price GSA paid by
over $32,000.

We recommend that PBS take action to prevent the award of contracts in this manner.
We also recommend that the Region pursue recovery of the overpayment. 


Finding 1 – Task Order Value Was Limited

In our February 2011 interim audit memorandum (see Appendix B), we concluded that
the task order did not comply with the Federal Acquisition Regulation (FAR) in that it
contained only general descriptions of tasks and lacked measurable deliverables. The
combination of non-specific deliverables with the expedited award process led us to
question the value of the work obtained under the $234,338.08 task order. 

Agency management asserted that the task order was required because the Region did
not have the needed level of communication expertise in-house. However, most of the
JMA task order work consisted of performing research (i.e., the history of the Complex,
its tenants, and government agencies), participating in and recording meetings, and
other activities such as reading and cataloging news reports. JMA did provide some
work products under the task order. The primary work products provided were a media
kit and briefing notebook, a draft knowledge management plan, a research report, and a
draft risk communication plan.

The media kit and briefing notebook were provided to the government on or about
March 12, 2010, 35 days after the initial task order award and 4 days after the expiration
of the original task order period. The media kit contained fact sheets with basic
background information (i.e., “What is GSA?” “What is the Superfund?”). It also
included brief descriptions of environmental regulatory authorities, along with
background information about the Complex. The briefing notebook contained the
contents of the media kit, and additional information such as copies of news articles and
e-mails sent to the Complex’s tenants.

JMA provided the research report, draft knowledge management plan, and draft risk
communication plan in May 2010 during the final days of the task order. The plans
were not issued in final and were incomplete. More importantly, PBS did not use these
documents, and could not locate the plans when we requested them. We also noted



                                            2
that the Region could not locate a $3,878.58 training video used to coach the Regional
Commissioner to respond to the media.

In addition, JMA’s file documentation indicates that much of its research was performed
through publicly available sources (i.e., the internet) and from communications with
GSA employees. For example, a February 4, 2010, JMA e-mail discussed the start of
work on the project and stated, “Let’s make a workplan based on what we know about
crisis communication -- plus what we can see on the web. There are some good plans
near the surface on Google.”

We concluded that the work performed under the task order provided little value for the
$234,338.08 expended. The primary reason for this was that PBS did not adequately
define the scope of work or include measurable deliverables in the task order
requirements. In awarding the initial task order, the Region sought the assistance of a
U.S. Environmental Protection Agency (EPA) official. The EPA official had no
background in contracting and allowed JMA to prepare the SOW. GSA officials then
used JMA’s SOW and stated that they were unaware that it had come from JMA. The
SOW lacked specific deliverables and performance measures. According to JMA e-
mails, the company wanted the SOW to be generic in nature. The SOW for the
extension of the task order also came from JMA, but it is the Region’s position that they
worked with the contractor in preparing this SOW. However, the SOW provided by the
contractor remained generally unchanged.

In the rush to award the task order, PBS abdicated its responsibilities as a contracting
agency. The result was that the services and products obtained were not well defined
and of limited value. Even the contractor expressed frustration at the lack of usefulness
its work had been to the Region and how the Region disregarded some of its work.

Recommendation 1

We recommend the Regional Commissioner, Public Buildings Service, Heartland
Region:

Implement controls to ensure that PBS contracting actions contain measurable
deliverables in accordance with the FAR and that PBS associates prepare SOWs for
contracting actions.


Finding 2 – JMA Overcharged GSA

During the extension period, JMA overbilled GSA by more than $32,000. The JMA
overbillings are primarily related to hours it incurred in February 2010 under the original
firm-fixed-price task order and then billed during the extension period. In addition, there
were discrepancies on JMA employee timesheets and JMA omitted prompt pay
discounts on task order invoices. The total refund amount was computed as follows:




                                            3
                      Figure 1 – Overbilling Calculation
                   Overbilled Item                 Amount      Notes
         Labor Hours for Invoice Number 306        $23,941.92   (1)
         Labor Hours for Invoice Number 405         16,163.77   (1)
         Prompt Payment Terms                           971.16  (2)
         Allowed Subcontract Costs                  (8,241.08)  (3)
         Total                                     $32,835.77

Notes:

(1) The refund amount represents the difference between JMA’s billed and actual
    labor hours incurred by labor category during the task order extension period
    multiplied by the applicable task order labor rate.

   Under invoice number 306, JMA billed 620.25 labor hours during the period
   March 9 – April 8, 2010. However, JMA’s time records show a total of 345.50
   labor hours charged to the GSA task order for the same period (a difference of
   274.75 hours). Under invoice number 405, the company billed 451.00 labor
   hours during the period April 9 – May 10, 2010. However, its time records show
   a total of 358.25 labor hours charged to the GSA task order during the same
   period (a difference of 92.75 hours).

   JMA’s explanation  for the overbilling was that its actual costs during the initial
   invoice period (February 5 – March 8) were $126,636.29, which exceeded the
   firm-fixed-price amount by $26,696.04. JMA stated that it carried these excess
   labor costs over from the initial firm-fixed-price period to the extension period (its
   second and third invoices). However, both the contract  and FAR provisions
   prohibit this type of billing. Per FAR 16.202-1, “A firm-fixed-price contract
   provides for a price that is not subject to any adjustment on the basis of the
   contractor’s cost experience in performing the contract. This contract type places
   upon the contractor maximum risk and full responsibility for all costs and resulting
   profit or loss. It provides maximum incentive for the contractor to control costs
   and perform effectively and imposes a minimum administrative burden upon the
   contracting parties.”

   There were other problems with the supporting documentation as well. For
   example, JMA billed 91.75 hours for a “graphic designer” at an hourly rate of
   $123.17. However, JMA timesheets reflected JMA’s “graphic designer” charged
   only 5.5 hours to the GSA project during the extension period which we allowed
   for in our overbilling calculation. In addition, JMA payroll records show that this
   individual was paid $14.42 per hour; therefore, in determining the overpayment,
   the agency may want to examine the reasonableness of this rate.

   Also, we noted that in October 2011 the company provided a timesheet for the
   principal that indicated the principal worked 59.25 hours on the GSA task order in
   May 2010. Timesheets for the principal had been previously provided to the OIG


                                         4
      in response to a subpoena. This new timesheet does not match those previously
      submitted to our office. It is in a different format and only includes time charged
      to the GSA task order while the other JMA timesheets include time for all projects
      worked by the JMA staff. In addition, this new timesheet shows that the principal
      was working with other JMA employees but, based on the company’s timesheets,
      these employees did not charge time to the GSA task order on the same days
      and did not appear to even be working on some of these days. We did not allow
      any hours for this timesheet.

   (2) JMA failed to include the required 0.5 percent prompt payment discount terms on
       its invoices. The refund amount represents the prompt payment discount due
       GSA.

   (3) This upward adjustment represents costs for subcontractors JMA documented as
       having worked on the GSA task order during the extension period. Although the
       task order indicated that no other direct costs would be needed, we allowed
       these expenses to ensure that our refund calculation was not overstated.

JMA billed the agency $134,397.83 or 99.998 percent of the not to exceed amount for
the extension period. However, neither its supporting documents nor its explanation of
the discrepancies, support this amount. These overbillings occurred because JMA
failed to comply with the terms of its Multiple Award Schedule contract and task order.

Recommendation 2

We recommend the Regional Commissioner, Public Buildings Service, Heartland
Region:

Instruct the contracting officer to issue a demand letter to JMA for the total amount that
JMA overbilled the government under the subject task order.



Conclusion
The government received limited value for the $234,338.08 expended on task order GS-
P-06-10-GX-0012 primarily because the SOW was not well defined and the task order
did not include measurable deliverables. The PBS Regional Commissioner should
implement controls to ensure that all contracting actions contain measurable
deliverables in accordance with the FAR and that PBS associates prepare SOWs. In
addition, based on our review of JMA timesheets and other documentation, we
determined that JMA overbilled GSA by over $32,000. Accordingly, the PBS Regional
Commissioner should take steps to recoup the overbilled amounts under this task order.




                                            5
Other Matters
Our review uncovered two potential issues related to the retention and maintenance of
e-mail messages. First, we found that the PBS Regional Commissioner does not
electronically archive e-mails and retained very few e-mail messages. Second, the PBS
Regional Commissioner directed that some names and e-mail addresses on selected
hard copy e-mail records be redacted using white out. The original hard copy e-mails
with white out were belatedly provided to our office after the Subcommittee hearing.
However, (1) most of the PBS Regional Commissioner’s e-mails may constitute official
government records that must be maintained and (2) if a record exists only in hard copy,
this documentation must be maintained and produced in its original unaltered form.

Accordingly, the PBS Regional Commissioner should obtain formal guidance regarding
requirements for the maintenance and retention of official government records and in
particular, e-mail correspondence. In addition, GSA may want to consider providing
guidance to all agency management concerning this matter.



Management Comments
Although PBS regional management did not agree with some of the language in the
report, PBS concurred with the report findings and recommendations. Management’s
response is included in its entirety as Appendix F.




                                           6
Appendix A – Purpose, Scope, and Methodology
                                                                      Report Number A110119/P/6/R12001

Purpose

This audit was performed because during our review of health and safety conditions at
the Bannister Federal Complex1 (Complex) in Kansas City, Missouri, we identified
problems related to the award and administration of task order GS-P-06-10-GX-0012
with Jane Mobley Associates, Inc. (JMA).

Scope

This report presents the results of our audit of the GSA and JMA file documentation and
administration of this task order for communications consultant services at the Complex.

Methodology

To accomplish our objective, we:

       •      Reviewed documents from the subject task order file awarded under JMA’s
              Multiple Award Schedule contract number GS-23F-0354P. The task order was
              effective February 5, 2010, to May 10, 2010.
       •      Interviewed PBS Heartland Region personnel.
       •      Reviewed JMA timesheets and file documentation for the task order.
       •      Held discussions with and corresponded with JMA representatives.

We conducted the audit between February and June 2011 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We obtained
additional information from JMA in October 2011. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Internal Controls

The examination of internal controls was limited to those necessary to achieve the
specific objective and scope of the audit. Our results are identified in the body of this
report.




                                                            
1
 Review of Health and Safety Conditions at the Bannister Federal Complex, Kansas City, Missouri, Report Number
A100116/P/6/R11001, dated November 8, 2010.


                                                               A-1
Appendix B – February 18, 2011, Interim Audit Memorandum
                                    Report Number A110119/P/6/R12001




                                                                    


                           B-1
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001




                                                                        


                          B-2
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
                                                                        




                                                                        



                          B-3
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
 




                                                                    


                          B-4
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
 




                                                                        



                          B-5
 
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
 




                                                                        


                          B-6
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
 




                                                                        


                          B-7
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
 




                                                                        


                          B-8
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
 




                                                                        




                          B-9
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
 




                                                                        


                          B-10
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001




                                                                   


                          B-11
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
 




                                                                    



                          B-12
Appendix B – February 18, 2011, Interim Audit Memorandum
(cont.)
                                    Report Number A110119/P/6/R12001
 




                          B-13
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee
                                Report Number A110119/P/6/R12001




                        C-1
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-2
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-3
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-4
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-5
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-6
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-7
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-8
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-9
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-10
Appendix C – OIG’s April 20, 2011, Letter to Senate
Subcommittee (cont.)
                                Report Number A110119/P/6/R12001




                        C-11
Appendix D – Senator McCaskill May 9, 2011, Letter to GSA
Administrator
                                    Report Number A110119/P/6/R12001




                           D-1
Appendix D – Senator McCaskill May 9, 2011, Letter to GSA
Administrator (cont.)
                                    Report Number A110119/P/6/R12001




                           D-2
Appendix E – GSA Administrator’s May 20, 2011, Letter to
Subcommittee
                                    Report Number A110119/P/6/R12001




                          E-1
Appendix E – GSA Administrator’s May 20, 2011, Letter to
Subcommittee (cont.)
                                    Report Number A110119/P/6/R12001




                          E-2
Appendix E – GSA Administrator’s May 20, 2011, Letter to
Subcommittee (cont.)
                                    Report Number A110119/P/6/R12001




                          E-3
Appendix F – PBS Response to the Draft Report
                                   Report Number A110119/P/6/R12001




                                                                       




                           F-1
Appendix F – PBS Response to the Draft Report (cont.)
                                    Report Number A110119/P/6/R12001




                            F-2
Appendix G – Distribution List
                                                      Report Number A110119/P/6/R12001



                                                                              Copies

Regional Commissioner, Public Buildings Service (6P)                             1

Regional Administrator, Heartland Region (6A)                                    1

Regional Counsel (6L)                                                            1

Director, Internal Control Division (BCB)                                        1

Branch Chief, GAO and IG Audit Response Branch (BCBB)                            1

Assistant Inspector General for Auditing (JA)                                    1

Counsel to the Inspector General (JC)                                            1

Director, Audit Planning, Policy, and Operations Staff (JAO)                     1

Special Agent in Charge (JI-6)                                                   1




                                            G-1
